No. ______

In the Supreme Court of the United States
__________________
BIG TIME VAPES, INCORPORATED; UNITED STATES
VAPING ASSOCIATION, INCORPORATED,
Petitioners,
v.
FOOD & DRUG ADMINISTRATION; STEPHEN M. HAHN,
COMMISSIONER OF FOOD AND DRUGS; ALEX M. AZAR,
II, SECRETARY, U.S. DEPARTMENT OF HEALTH AND
HUMAN SERVICES, IN HIS OFFICIAL CAPACITY,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI

__________________
JERAD WAYNE NAJVAR
Counsel of Record
AUSTIN M.B. WHATLEY
NAJVAR LAW FIRM, P.L.L.C.
2180 North Loop West, Ste. 255
Houston, TX 77018
(281) 404-4696
jerad@najvarlaw.com
Counsel for Petitioners
December 18, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Congress enacted the Tobacco Control Act (TCA or
“the Act”) in 2009, imposing a detailed regulatory
framework initially limited to cigarettes and
“smokeless tobacco” (essentially, snuff). But TCA
§ 387a(b) also gave the Secretary of Health and Human
Services the unilateral power to extend the TCA’s
reach to cover any other “tobacco product,” a capacious
term capturing “any product made or derived from
tobacco that is intended for human consumption,
including any component, part, or accessory of a
tobacco product.” The TCA does not require the
Secretary to make any factual finding, consider any
particular factors, or even hew to any broadly worded
limiting principle in deciding whether to extend federal
regulation over additional “tobacco products.”
In 2016, the FDA employed this authority,
“deeming” everything meeting the “tobacco product”
definition to be subject to the TCA. In one fell swoop,
the Agency extended the TCA’s requirements to
everything Congress had declined to regulate in 2009
(like cigars, hookah, and pipe tobacco), as well as to any
other existing and future “tobacco products,” including
the vapor products of particular concern to Petitioners.
The question presented is:
Whether Petitioners have stated a claim that
§ 387a(b) grants excessive policymaking discretion to
the executive branch to determine which tobacco
products shall be federally regulated, impermissibly
delegating legislative authority in violation of the
separation of powers established by the Constitution.

ii
PARTIES TO THE PROCEEDING
Petitioners, who were the plaintiffs below, are Big
Time Vapes, Inc., a Mississippi corporation, and the
United States Vaping Association, a non-profit trade
association that brought this action on behalf of its
member businesses, one of whom is Big Time Vapes,
Inc. None of the petitioners has a parent corporation,
and no publicly held company owns 10% or more of
stock of any of the petitioners.
Respondents, who were the defendants below, are
the Food & Drug Administration; Stephen M. Hahn,
Commissioner of Food and Drugs; and Alex M. Azar, II,
Secretary, U.S. Department of Health and Human
Services.
STATEMENT OF RELATED PROCEEDINGS
There are no proceedings in state or federal trial or
appellate courts, or in this Court, directly related to
this case within the meaning of this Court’s Rule
14.1(b)(iii).

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 4
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 6
I.

Congress Passes the Tobacco Control Act,
But Applies It Narrowly to a Subset of
“Tobacco Products” . . . . . . . . . . . . . . . . . . . . . 6

II.

The FDA Deploys Its “Deeming” Authority to
Unilaterally Extend Federal Regulation Over
All “Tobacco Products,” Including Those
Congress Itself Left Unregulated in 2009,
Correctly Explaining That the Statute
Grants FDA Unlimited Discretion . . . . . . . . . 8

III.

The FDA Struggles for Years to Determine
Its Priorities Regarding Newly-Regulated
Tobacco Products, Prompting Interest
Groups to Advance Their Preferences In
Federal Court. . . . . . . . . . . . . . . . . . . . . . . . . 13

iv
IV.

Petitioners Challenge the Deeming Authority
in Federal District Court. . . . . . . . . . . . . . . . 15

V.

Petitioners Appeal to the Fifth Circuit. . . . . 17
a. Contradicting its position in Nicopure, the
FDA now argues that a general policy can
be deduced from the Act’s preface . . . . . . 17
b. The Fifth Circuit detects a standard and
affirms dismissal . . . . . . . . . . . . . . . . . . . 20

REASONS FOR GRANTING THE PETITION . . . 22
I.

The Fifth Circuit’s Failure to Validate
Petitioners’ Claim Conflicts With This
Court’s Precedent and Vitiates Any
Remaining Limits on Delegation . . . . . . . . . 22
a. TCA § 387a(b) impermissibly delegates
quintessential legislative power . . . . . . . 22
b. The Fifth Circuit’s decision ignores and
contradicts Panama Refining . . . . . . . . . 23
c. Section 387a(b) is particularly troubling
because it delegates authority to decide
major policy questions . . . . . . . . . . . . . . . 32

II.

This Case Presents an Especially Compelling
Need For Enforcement of The Nondelegation
Principle Because of the Particularly Broad
and Standardless Delegation of Power to
Decide Major Policy Questions In An Area
Devoid of Any Inherent Presidential
Authority . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

v
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(June 25, 2020) . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Opinion and Order
Granting Defendants’ Motion to
Dismiss and Denying Plaintiffs’
Motion for Preliminary Injunction in
the United States District Court for
the Southern District of Mississippi
Southern Division
(December 16, 2019) . . . . . . . . . . App. 24
Appendix C Final Judgment in the United States
District Court for the Southern
District of Mississippi Southern Division
(December 16, 2019) . . . . . . . . . . App. 37
Appendix D Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Fifth Circuit
(August 25, 2020) . . . . . . . . . . . . App. 39

vi
TABLE OF AUTHORITIES
Cases
A.L.A. Schechter Poultry
Corp. v. United States, 295 U.S. 495 (1935) . . . 3, 30
Am. Acad. of Pediatrics v. Food and Drug Admin.,
8:18-cv-00883-PWG (D. Md. Jul. 12, 2019) . . 14, 15
Am. Power & Light Co. v. SEC,
329 U.S. 90 (1946). . . . . . . . . . . . . . . . . . . . . 18, 29
Field v. Clark,
143 U.S. 649 (1892). . . . . . . . . . . . . . . . . . . . . . . 22
Food and Drug Admin. v. Brown & Williamson
Tobacco Corp., 529 U.S. 120 (2000) . . . . . . . 26, 33
Gundy v. United States,
139 S. Ct. 2116 (2019). . . . . . . . . . . . . . . . . passim
Industrial Union Dept., AFL-CIO v. American
Petroleum Institute,
448 U.S. 607 (1980). . . . . . . . . . . . . . . . . . . . 32, 37
King v. Burwell,
576 U.S. 473 (2015). . . . . . . . . . . . . . . . . . . . . . . 28
Moose Jooce v. Food & Drug Admin.,
__ F.3d __ No. 20-5048, 2020 WL 7034417
(D.C. Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Nicopure Labs, LLC v. Food and Drug Admin.,
266 F. Supp. 3d (D.D.C. 2017),
aff’d, 944 F.3d 267 (D.C. Cir. 2019)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 12, 17, 22

vii
Opp Cotton Mills v. Admin. of Wage and Hour
Division of Dep’t of Labor,
312 U.S. 126 (1941). . . . . . . . . . . . . . . . . . . . . . . 22
Panama Refining Co. v. Ryan,
293 U.S. 388 (1935). . . . . . . . . . . . . . . . . . . passim
Paul v. United States,
589 U.S. __ (2019) . . . . . . . . . . . . . . . . . . . . . . . . 33
Reynolds v. United States,
565 U.S. 432 (2012). . . . . . . . . . . . . . . . . . . . . . . 23
Thomas v. Union Carbide Agric. Prod. Co.,
473 U.S. 568 (1985). . . . . . . . . . . . . . . . . . . . . . . 29
Touby v. United States,
500 U.S. 160 (1991). . . . . . . . . . . . . . . . . . . . . . . 31
Yakus v. United States,
321 U.S. 414 (1944). . . . . . . . . . . . . . . . . . . . . 2, 23
Constitution and Statutes
U.S. Const. art. I, § 1 . . . . . . . . . . . . . . . . . . . . . . . . . 4
15 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
21 U.S.C. § 321(rr)(1) . . . . . . . . . . . . . . . . . . . . . . . . . 5
21 U.S.C. § 331(a). . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
21 U.S.C. § 331(b). . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
21 U.S.C. § 331(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
21 U.S.C. § 333(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . 8
21 U.S.C. § 333f(8) . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

viii
21 U.S.C. § 333f(9) . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
21 U.S.C. § 334 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
21 U.S.C. § 387 . . . . . . . . . . . . . . . . . . . . . . . . . 1, 5, 18
21 U.S.C. § 387a . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
21 U.S.C. § 387a(b). . . . . . . . . . . . . . . . . . . . . . passim
21 U.S.C. § 387b . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
21 U.S.C. § 387c . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
21 U.S.C. § 387d(a). . . . . . . . . . . . . . . . . . . . . . . . . . . 7
21 U.S.C. § 387e(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
21 U.S.C. § 387e(g) . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
21 U.S.C. § 387e(i) . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
21 U.S.C. § 387f(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
21 U.S.C. § 387j(a)(2)(A)(i). . . . . . . . . . . . . . . . . . . . 13
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 4
TCA § 3(2). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19, 26
TCA § 3(4). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
TCA § 3(7). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
TCA § 3(9). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

ix
Other Authorities
FDA, 81 Fed. Reg. 28973 Reference 204: Final
Regulatory Impact Analysis for the Deeming
Rule (Table 11a), (Table 12a) (May 9, 2016),
available at https://www.fda.gov/media/97875/
download (“Final RIA”). . . . . . . . . . . . . . . . . . . . 12
FDA, Deeming Tobacco Products to be Subject to the
Federal Food, Drug, and Cosmetic Act, as
Amended by the Family Smoking Prevention and
Tobacco Control Act; Restrictions on the Sale and
Distribution of Tobacco Products and Required
Warning Statements for Tobacco Products, No.
FDA-2014-N-0189, 81 Fed. Reg. 28,973 (May 10,
2016) (“Deeming Rule”) . . . . . . . . . . . . . . . passim
FDA, Enforcement Priorities for Electronic Nicotine
Delivery Systems (ENDS) and Other Deemed
Products on the Market Without Premarket
Authorization: Guidance for Industry (Jan. 2020)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
FDA, Premarket Tobacco Product Applications and
Recordkeeping Requirements, 84 Fed. Reg. 50566
(Sept. 25, 2019) (“Proposed Final PMTA Rule”)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 12
FDA Staff Manual Guide 1410.21(1)(G)(1)) . . . . . . . 8
Joyce Frieden, Senators Slam FDA for Inaction on
Youth Vaping Epidemic, MEDPAGE TODAY (Nov.
13, 2019), https://www.medpagetoday.com/prim
arycare/smoking/83324. . . . . . . . . . . . . . . . . . . . 34

x
Sarah Owermohle, Trump hosts vaping shoutfest at
the White House, POLITICO (Nov. 22, 2019),
https://www.politico.com/news/2019/11/22/trum
p-white-house-vaping-meeting-072937 . . . . 34, 35
Press Release, Sen. Dick Durbin, Durbin Sends
Bipartisan & Bicameral Letter to President
Trump Urging For Final E-Cigarette Flavor Ban
(Dec. 3, 2019), https://www.durbin.senate.gov/
newsroom/press-releases/durbin-sends-biparti
san-and-bicameral-letter-to-president-trumpurging-for-final-e-cigarette-flavor-ban. . . . . 36, 37
Press Release, Sen. Patty Murray, Senators
Murray, Cantwell Slam FDA E-Cigarette Policy
Riddled With Loopholes for Kid-Appealing
Flavors (Jan. 14, 2020), https://www.murray.sen
ate.gov/public/index.cfm/newsreleases?Content
Record_id=7F5D8E7C-539B-486F-AE63D8809D18D6AC . . . . . . . . . . . . . . . . . . . . . . . . . 37
Safe Kids Act, S. 655, 116th Cong. (2019). . . . . . . . 34
ANTONIN SCALIA & BRYAN A. GARNER, READING
LAW: THE INTERPRETATION OF LEGAL TEXTS 218
(2012). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

1
PETITION FOR A WRIT OF CERTIORARI
With the enactment of the Family Smoking
Prevention & Tobacco Control Act, Pub. L. No. 111-31,
123 Stat. 1777 (codified at 21 U.S.C. 387, et seq.) (TCA
or “the Act”) in 2009, Congress imposed a new
regulatory regime on cigarettes and smokeless tobacco.
N ot a b l y , Con g r e s s l e f t o t h e r t ypes of
tobacco—including such widely-used products as cigars
and hookah—unregulated. Congress punted to the
Secretary of Health and Human Services the authority
to “deem” any other “tobacco products” to be subject to
the TCA, with no guidance as to the circumstances
under which the Secretary should regulate additional
products. While the FDA chose to deem everything at
once, it was equally free to deem hookah and pipe
tobacco but not ENDS or cigars. It could have deemed
any products, or no products, in its unbridled
discretion.
This Court has certainly upheld delegations under
broadly worded standards, but it has also considered a
statute that imposed no standard in its operative text.
Panama Refining Co. v. Ryan, 293 U.S. 388 (1935). In
that case, the Court refused to concoct a standard
based on the broad purposes in the Act’s preface, and
held the law unconstitutional. Id. at 418-19. The
Panama Refining Court noted that, “[a]mong the
numerous and diverse objectives broadly stated” in the
preface to the National Industrial Recovery Act, “the
President was not required to choose,” 293 U.S. at 418
(emphasis added). Therefore, any “effort by ingenious
and diligent construction to supply a criterion still
permits such a breadth of authorized action as

2
essentially to commit to the President the functions of
a Legislature.” Id. at 419.
The TCA is another statute imposing no discernible
standard. Thus, even the cases frequently cited by this
Court as illustrating the outer bounds of permissible
delegations (see Big Time Vapes, Inc. v. Food and Drug
Admin., 963 F.3d 436, 442 n.18 (5th Cir. 2020) (App. 12
n.18) (citing cases)) do not support the deeming
authority, because—broad as they may have
been—every one of the statutes considered in those
cases incorporated some limiting principle beyond the
fact that the authority operated within a given field of
activity. Petitioners argued that, given that the TCA
lacks even a broad operative standard like those found
sufficient in Yakus v. United States, 321 U.S. 414, 420,
426 (1944), and other cases, Panama Refining
precludes any judicial attempt to derive an overarching
principle from ambiguous statements of purpose that
are in actual tension with one another. See also Gundy
v. United States, 139 S. Ct. 2116, 2146 (2019) (Gorsuch,
J., dissenting) (criticizing reliance on “broad and
sweeping statements … about a statute’s basic
purpose,” because “the fact remains that the law
[Congress] actually adopted for pre-Act offenders leaves
everything to the Attorney General.”) Yet the panel
below did what this Court refused to do in Panama
Refining: it imagined an overarching limiting principle,
stitched together from the broad statements of
congressional purpose found in the Act’s preface. App.
16-18.
The Fifth Circuit never acknowledged the part of
Panama Refining refusing to create a standard omitted

3
by Congress. Instead, it repeatedly adverted to the fact
that this Court has not held a delegation to be
excessive “in … nearly nine decades.” App. 12; see also
App. 20 (“The Court has found only two delegations to
be unconstitutional. Ever. And none in more than
eighty years.”).
Consequently, the Fifth Circuit
suggested that the purpose statements sufficed for a
standard, despite the fact that the FDA itself had
expressly stated, in the final “Deeming Rule,”1 and
later in another federal court,2 that no substantive
standard limited its exercise of deeming authority. The
Fifth Circuit’s opinion, therefore, reflects that the lack
of any enforcement of the nondelegation doctrine for
eight decades has now eroded even the threadbare
limitations that Panama Refining and A.L.A. Schechter
Poultry Corp. v. United States, 295 U.S. 495 (1935),
should command.
While the Fifth Circuit apparently felt compelled to
uphold this standardless delegation, it may have subtly
invited this Court’s scrutiny. The panel concluded its
opinion by noting that “the Court might well
decide—perhaps soon—to reexamine or revive the
nondelegation doctrine,” “[b]ut we are not supposed to
read tea leaves to predict where it might end up.” App.
23 (internal punctuation and citation omitted).
1

FDA, Deeming Tobacco Products to be Subject to the Federal
Food, Drug, and Cosmetic Act, as Amended by the Family Smoking
Prevention and Tobacco Control Act; Restrictions on the Sale and
Distribution of Tobacco Products and Required Warning
Statements for Tobacco Products, No. FDA-2014-N-0189, 81 Fed.
Reg. 28,973 (May 10, 2016) (“Deeming Rule”).
2

See discussion infra at 11.

4
Petitioners Big Time Vapes, Inc., and the United
States Vaping Association respectfully petition for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Fifth Circuit.
OPINIONS BELOW
The Fifth Circuit’s opinion is reported at 963 F.3d
436, and reproduced at App. A. The order of the Fifth
Circuit denying rehearing en banc is reproduced at
App. D. The District Court’s opinion and order
granting Defendants’ motion to dismiss and denying
plaintiffs’ motion for preliminary injunction is reported
at 427 F.Supp.3d 831 and reproduced at App. B, and
the District Court’s final judgment is unreported but
reproduced at App. C.
JURISDICTION
The Fifth Circuit entered its judgment on June 25,
2020. App. 1. It denied a timely petition for rehearing
en banc on August 25, 2020. App. D. This Court has
jurisdiction under 28 U.S.C. § 1254(1). This petition is
timely filed, as it is filed within 150 days from the date
of the Fifth Circuit’s order denying rehearing en banc.
Order, 589 U.S. __ (Mar. 19, 2020).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Article I, Section 1 of the Constitution provides: “All
legislative Powers herein granted shall be vested in a
Congress of the United States, which shall consist of a
Senate and House of Representatives.”

5
Section 901 of the TCA, 21 U.S.C. § 387a(b),
provides that “[t]his chapter shall apply to all
cigarettes, cigarette tobacco, roll-your-own tobacco, and
smokeless tobacco and to any other tobacco products
that the Secretary by regulation deems to be subject to
this chapter.”
21 U.S.C. § 321(rr)(1) provides that “[t]he term
‘tobacco product’ means any product made or derived
from tobacco that is intended for human consumption,
including any component, part, or accessory of a
tobacco product (except for raw materials other than
tobacco used in manufacturing a component, part, or
accessory of a tobacco product).”
21 U.S.C. § 387 provides the text of relevant
definitions, as follows:
(4) Cigarette tobacco
The term “cigarette tobacco” means any product
that consists of loose tobacco that is intended for
use by consumers in a cigarette. Unless
otherwise stated, the requirements applicable to
cigarettes under this subchapter shall also apply
to cigarette tobacco.
…
(15) Roll-your-own tobacco
The term “roll-your-own tobacco” means any
tobacco product which, because of its
appearance, type, packaging, or labeling, is
suitable for use and likely to be offered to, or

6
purchased by, consumers as tobacco for making
cigarettes.
…
(18) Smokeless tobacco
The term “smokeless tobacco” means any tobacco
product that consists of cut, ground, powdered,
or leaf tobacco and that is intended to be placed
in the oral or nasal cavity.
…
(20) Tobacco product manufacturer
The term “tobacco product manufacturer” means
any person, including any repacker or relabeler,
who-(A) manufactures, fabricates, assembles,
processes, or labels a tobacco product; or
(B) imports a finished tobacco product for sale or
distribution in the United States.
STATEMENT OF THE CASE
I.

Congress Passes the Tobacco Control Act,
But Applies It Narrowly to a Subset of
“Tobacco Products”.

The TCA provides that “[t]obacco products … shall
be regulated by the Secretary under this subchapter[.]”
21 U.S.C. § 387a.
A variety of products fitting the “tobacco product”
definition—i.e., “made or derived from tobacco” and

7
“intended for human consumption”—were in
widespread use in 2009. Such products include
cigarettes, chewing tobacco, premium and nonpremium
cigars, hookah (waterpipe) tobacco, and pipe tobacco.
However, Congress only applied the TCA to cigarettes
and snuff, and punted the authority to expand the
reach of this new regulatory apparatus across
Independence Avenue, to the HHS Secretary, stating:
This chapter shall apply to all cigarettes,
cigarette tobacco, roll-your-own tobacco, and
smokeless tobacco and to any other tobacco
products that the Secretary by regulation deems
to be subject to this chapter.
21 U.S.C. § 387a(b). Congress provided no guidance as
to why or when the Secretary should declare any
additional tobacco product to be subject to federal
regulation.
With respect to any products subjected to the TCA,
the statute imposes several requirements.
Any
“manufacturer” of a regulated tobacco product must
register with the FDA, file full lists of products and
ingredients and other information, file annual
statements of product offerings (with biannual
updates), and be subject to inspection. 21 U.S.C.
§§ 387d(a), 387e(b), (g), (i); see App. 4-6. Manufacturers
are prohibited from introducing any “new tobacco
product,” defined as a product that “was not
commercially marketed in the United States as of
February 15, 2007,” without premarket authorization.
The Act provides three pathways for seeking premarket
authorization, but because vapor products (dubbed
“electronic nicotine delivery systems” or “ENDS” by

8
FDA) were not on the market as of February 2007, the
only pathway available for them is the most onerous
“premarket tobacco application” (PMTA) pathway. See
App. 8; see also FDA, Premarket Tobacco Product
Applications and Recordkeeping Requirements, 84 Fed.
Reg. 50566, 50568 n.1 (Sept. 25, 2019) (“Proposed Final
PMTA Rule”).
Finally, placing a product under the TCA allows the
FDA to “impose additional rules by regulation, such as
minimum age restrictions, mandatory health warnings,
method-of-sale limits, and advertising constraints.”
App. 5-6; see 21 U.S.C. § 387f(d). Failure to comply
subjects a manufacturer’s products to be designated as
“adulterated” or “misbranded,” see 21 U.S.C. §§ 387b,
387c, which could result in civil penalties and seizure
of product, see id. §§ 333f(8)-(9), 334, and even criminal
penalties, see id. §§ 331(a), (b), (c), 333(a)(1).
II.

The FDA Deploys Its “Deeming” Authority
to Unilaterally Extend Federal Regulation
Over All “Tobacco Products,” Including
Those Congress Itself Left Unregulated in
2009, Correctly Explaining That the Statute
Grants FDA Unlimited Discretion.

The Secretary internally delegated the “deeming”
authority to the FDA Commissioner, who delegated it
to several deputy and associate commissioners. See
App. 4 n.5 (citing FDA Staff Manual Guide
1410.21(1)(G)(1)).3 In 2016, the FDA proposed a rule
3

Accordingly, the Deeming Rule was issued in May 2016 by
Associate Commissioner for Policy Leslie Kux. The Court of
Appeals for the District of Columbia recently rejected an

9
that would extend the TCA’s scope under one of two
options. “Option 1” proposed deeming everything
meeting the “tobacco product” definition; “Option 2”
also proposed deeming everything, except for “premium
cigars.” See Deeming Rule, 81 Fed. Reg. at 29,020.
After notice and comment, the FDA chose Option 1.
Thus, when it issued the final Deeming Rule, the FDA
applied the TCA to any product meeting the “tobacco
product” definition—that is, to (i) everything Congress
itself had declined to regulate in 2009, plus (ii) any and
all current and future “tobacco products.” FDA
explained the breadth of the Deeming Rule:
Products that meet the statutory definition of
“tobacco products” include currently marketed
products such as dissolvables not already
regulated by FDA, gels, waterpipe tobacco,
ENDS (including e-cigarettes, e-hookah, ecigars, vape pens, advanced refillable personal
vaporizers, and electronic pipes), cigars, and
pipe tobacco.
In addition, this final rule deems any additional
current and future tobacco products that meet
the statutory definition of “tobacco product[.]”
81 Fed. Reg. 28,976.
As discussed further below, Petitioners are active in
the ENDS industry. Vapor devices, also known as
Appointments Clause challenge to the Rule, holding that
ratification in 2019 by then-Commissioner Gottlieb cured any
Appointments Clause defect. Moose Jooce v. Food & Drug Admin.,
__ F.3d __, No. 20-5048, 2020 WL 7034417 (D.C. Cir. 2020).

10
“electronic cigarettes,” “e-cigarettes,” or “electronic
nicotine delivery systems (ENDS),” are handheld
electronic devices used to heat and aerosolize a liquid
mixture (“e-liquid”) that includes flavoring and various
levels of liquid nicotine, including zero nicotine.
ROA.374.4 Once the liquid is aerosolized, the user
inhales the “vapor” in a manner similar to that of
inhaling actual tobacco smoke, but without setting any
tobacco on fire. Id. ENDS devices come in “closed” or
“open” systems. In a “closed system,” either the device
itself or interchangeable pods or cartridges intended for
use with that device come pre-filled with a particular
type of e-liquid. See ROA.136 (definition of “Ecigarette”). In an “open system,” the device will not
come pre-filled; rather, the user will separately buy
bottled e-liquid(s) and use them to fill the device’s eliquid reservoir, or “tank,” with the e-liquid and
nicotine level of his or her choice. Id.
In the Deeming Rule, the FDA frankly
acknowledged that significant distinctions can be made
regarding health effects between combustible and noncombustible products.
81 Fed. Reg. at 28,982
(“Researchers recognize that the effects from nicotine
exposure by inhalation without combustion are likely
not responsible for the high prevalence of tobaccorelated death and disease in this country.”) But the
FDA rejected the notion that the statute imposed any
substantive guidance—regarding a public health
standard or otherwise—on its deeming discretion.

4

Citations to the record refer to the “Record on Appeal,” as it is
denominated in the Court of Appeals for the Fifth Circuit.

11
During the comment period required by the
Administrative Procedures Act, a commenter asserted
that the FDA is required to “establish that deeming [a
product] will benefit public health.” Deeming Rule, 81
Fed. Reg. at 28983. The FDA gently corrected the
commenter, explaining that this suggestion “attempted
to impose a standard for the application of FDA’s
deeming authority that is not created by statute or
otherwise.” Id. (emphasis added). The FDA reiterated
this position in defending against an APA challenge in
the District Court for the District of Columbia, writing
that “Congress authorized the FDA to subject ‘any’
tobacco product … to the [TCA] as it ‘deems’ fit,
without articulating any standards to cabin the
agency’s discretion.”
ROA.338-39 (FDA’s legal
memorandum, filed in Nicopure Labs, LLC v. Food and
Drug Admin., 266 F. Supp. 3d 360, 393 (D.D.C. 2017)
(emphasis added), aff’d, 944 F.3d 267 (D.C. Cir. 2019));
see also id. (FDA writing that “Congress’s choice of the
deferential word ‘deems’ and the absence of any
standard—beyond the requirement that the product
meet the definition of a ‘tobacco product’—demonstrate
that Congress committed the exercise of this authority
to the agency’s broad discretion.”) (emphasis added).
The Nicopure District Court agreed with the FDA,
recognizing that “the statute did not provide standards
for when and how the agency was to exercise its
discretion to deem[.]” Nicopure Labs, LLC, 266 F.
Supp. 3d at 393.5
5

The Nicopure District Court made this statement in the course of
holding that the only substantive limitation on the Secretary’s
deeming authority, and thus justiciable for purposes of Nicopure’s
APA challenge, is that deeming extends only to “tobacco products.”

12
Despite recognizing that non-combustible products
are “likely” not responsible for the health problems
associated with traditional combustible tobacco, supra
at 10, the FDA also recognized that imposing the TCA
would have comparatively harsh consequences on the
market for ENDS. ENDS products, particularly eliquids, are characterized by a high degree of variation,
due to the number of possible combinations of flavors,
nicotine concentrations, and bottle sizes. As an
example, Petitioner Big Time Vapes “manufactures” its
own proprietary flavors—350 of them—which can be
sold in varying levels of nicotine content (0-24 mls), and
in six different bottle sizes. ROA.12. As a result, Big
Time Vapes has registered 98,000 stock keeping units
(SKUs) with the FDA. The FDA advises that any
variation in flavor, nicotine content, or bottle size
constitutes a unique “new tobacco product” requiring
its own PMTA. Proposed Final PMTA Rule, 84 Fed.
Reg. at 50573 (discussing proposed final definition of
“new tobacco product”).6 FDA estimated that an initial
premarket review application for e-liquids would cost
between $181,686 and $2,014,120 per application, and
applications for delivery devices between $285,656 and
$2,622,224 per application.7
266 F. Supp. 3d at 393. Nicopure did not assert a violation of the
nondelegation doctrine, and, as demonstrated below, merely
defining the field of potential regulation is insufficient.
6

7

The final PMTA rule has still not yet been promulgated.

FDA, 81 Fed. Reg. 28973, Reference 204: Final Regulatory Impact
Analysis for the Deeming Rule, at 87 (Table 11a), 90-91 (Table 12a)
(May 9, 2016), available at https://www.fda.gov/media/97875/
download (“Final RIA”).

13
The particularly wide product variability
characterizing the ENDS industry, coupled with the
prohibitive costs of even a single PMTA, illustrate why
the FDA estimated that, based solely on “compliance
costs,” applying the TCA to ENDS would cause 87.5%
of e-liquids to “exit the market.” Final RIA at 78-79.
By contrast, FDA estimated only 5% of combusted
tobacco products (cigars, pipes, and hookah)—which
can take advantage of a less burdensome approval
pathway—would exit the market. Id.8
III.

The FDA Struggles for Years to Determine
Its Priorities Regarding Newly-Regulated
Tobacco Products, Prompting Interest
Groups to Advance Their Preferences In
Federal Court.

For years following promulgation of the Deeming
Rule, the FDA repeatedly acknowledged that it was not
prepared to implement the TCA with respect to this
industry. While the ENDS market was frozen as of the
effective date of the Deeming Rule (precluding
Petitioners from marketing any new products not
already being sold as of the Rule’s effective date in
August 2016), the FDA withheld enforcement against
those products already on the market, pending timely
submission of PMTAs. Deeming Rule, 81 Fed. Reg. at
21,977-78. PMTAs were initially due in August 2018,
id., but the FDA extended the deadlines (and changed

8

Cigarette and cigar manufacturers can seek premarket approval
by “submitting a ‘report’ showing that the product ‘is substantially
equivalent to a tobacco product commercially marketed’ before
February 2007.” App. 5 (quoting 21 U.S.C. § 387j(a)(2)(A)(i).

14
its enforcement policy in other ways) in a series of
guidance documents.
In June 2017, then-FDA Commissioner Scott
Gottlieb, M.D., stated that the “foundational regulatory
architecture” was not in place “because the Agency’s
tobacco program itself is so new,” ROA.382, and that
“the FDA intends to issue regulations outlining what
information the agency expects to be included in
[PMTAs]” and “how it intends to review PMTAs for
ENDS,” ROA.382. The following month, FDA issued
its August 2017 Guidance, extending the initial PMTA
submission deadline for ENDS products to August
2022. See ROA.192-205. Then, for the next two years,
Commissioner Gottlieb continued to emphasize that
“[t]he foundational regulations for the tobacco program
were never put in place and so we’re going to take the
time to put those in place so we have a firm foundation
from which to regulate.” ROA.382; see also ROA.38384 (collecting additional statements).
Objecting to the FDA’s delayed enforcement
schedule, a number of anti-vaping interest groups
challenged the FDA’s extended deadlines in the
District Court for the District of Maryland. See Am.
Acad. of Pediatrics v. Food and Drug Admin., 8:18-cv00883-PWG (D. Md.) (AAP). The AAP District Court
held that the August 2017 extension of the enforcement
deadlines violated the APA, and indicated that the
court would set a new deadline.
The FDA warned against setting an unrealistic
deadline that would threaten the viability of ENDS
manufacturers. Mitchell Zeller, Director of the FDA’s
Center for Tobacco Products, stated that “mass market

15
exit of [ENDS] products would limit the availability of
a potentially less harmful alternative for adult smokers
seeking to transition or stay away from combustible
tobacco products,” and that “[d]ramatically and
precipitously reducing availability of these products
could present a serious risk” to adults. AAP (Dkt. No.
120-1 ¶15). In July 2019, the AAP District Court
entered an order accelerating the deadline for ENDS
PMTAs to May 2020 (just ten months from the date of
that order). AAP, 2019 WL 3067492, at *7 (D. Md. Jul.
12, 2019).9
IV.

Petitioners Challenge the Deeming
Authority in Federal District Court.

The AAP District Court’s order moved the deadline
for ENDS PMTAs up by 27 months. Petitioners filed
suit in the Southern District of Mississippi on August
19, 2019, alleging that § 387a(b) was an
unconstitutional delegation of legislative authority, and
seeking a declaratory judgment and permanent
injunction prohibiting the FDA from enforcing the TCA
or the Deeming Rule against them. App. 9. Plaintiff
Big Time Vapes, Inc., is a Mississippi corporation
wholly owned by Belinda Dudziak, who smoked oneand-a-half to three packs of cigarettes every day for 26
years until she was able to quit entirely within days of
trying her first e-cigarette. ROA.12. She began vaping
9

Shortly before this deadline, on April 22, 2020, the AAP District
Court granted the FDA’s request to extend the deadline to
September 9, 2020, due to the effects of the coronavirus and
related restrictions on business activity. Am. Acad. of Pediatrics
v. Food and Drug Admin., No. 8:18-cv-00883-PWG (D. Md. Apr. 22,
2020).

16
e-liquids with 18% nicotine content, gradually reduced
the nicotine level, and now vapes exclusively without
nicotine. Id. Big Time Vapes is a single-location
retailer and “manufacturer” of vaping products with
approximately 4,000 customers, 98% of whom have quit
smoking cigarettes entirely. Id. Plaintiff United
States Vaping Association is a trade association
representing small “manufacturers” and retail shops in
the industry. ROA.12-13.10
Weeks after Petitioners’ suit was filed, in a press
conference televised live from the White House, the
Administration announced its intent to modify its
enforcement policy to remove all flavored vapor
products from the market (other than tobacco flavors)
within a matter of weeks. See ROA.387-88.
In light of this threatened ban on a substantial
portion of their products, Petitioners moved for a
preliminary injunction on October 10, 2019, arguing
that the impending PMTA deadline, and the newlyannounced ban on nearly all flavored products, each
independently threatened irreparable harm. ROA.40510. The FDA11 filed a Rule 12(b)(6) motion to dismiss
the suit contemporaneously with a response to
Petitioners’ injunction request, and a combined
memorandum arguing both in support of dismissal and

10

The USVA had approximately three dozen members in August
2019, ROA.13, which expanded to more than fifty when the motion
for preliminary injunction was filed in October 2019, ROA.341.
Membership has expanded significantly since then.
11

Respondents are sometimes referred to herein collectively as
“the government” or “FDA.”

17
opposition to the requested injunction. ROA.443-506.
The combined memorandum leads off with eighteen
pages of “introduction” and “background” material,
including references to selected representations of facts
from the congressional record in 2009 and decades-old
government reports regarding combustible tobacco
products and cigarette manufacturers.
Petitioners argued that dismissal would be
unwarranted because they had stated a valid claim, but
that, even if that were doubtful, they should be
afforded reasonable discovery on discrete issues prior
to dismissal, especially in light of the government’s
reliance in the combined memorandum on selective
references to factual material that was not cited in
Petitioners’ complaint.
On December 16, 2019, the District Court granted
the FDA’s motion to dismiss and denied the injunction.
App. B, D. Petitioners appealed to the Fifth Circuit.
V.

Petitioners Appeal to the Fifth Circuit.
a. Contradicting its position in Nicopure,
the FDA now argues that a general
policy can be deduced from the Act’s
preface.

Petitioners argue that § 387a(b) is an
unconstitutional delegation because Congress failed to
provide any policy, standard, or even factors for the
Secretary’s consideration in determining which
additional segments of the nationwide “tobacco
products” industry shall be federally regulated.
Despite its argument to the federal court in
Nicopure—that Congress had failed to “articulat[e] any

18
standards to cabin the agency’s discretion,” supra at
11—the FDA recognized it had to change tack here.
The FDA relies heavily on the fact that the TCA
limits the scope of the deeming authority to the field of
“tobacco products,” as defined by statute, and that, once
a product is deemed, the TCA supplies the framework
of substantive regulation applicable to it. FDA Br. at
13-25. While true, as Petitioners explain infra at 3031, these features of the TCA do not substitute for the
fact that the Secretary has uncabined discretion to
determine whether any given product shall be
regulated in the first place. On this dispositive
question, the FDA struggled to articulate any guiding
principle.
Given the lack of any standard or criteria in the
Act’s operative text, the FDA relied on the principle
that “the standards of the statute … must derive
meaningful content from the purpose of the statute and
its factual background and the statutory context in
which the standards appear.” FDA Br. at 18 (citing a
circuit case, which quotes Am. Power & Light Co. v.
SEC, 329 U.S. 90, 104-05 (1946)). Referring to the
Act’s preface (adopted, of course, in 2009), the FDA
noted that “Congress made extensive findings
regarding the unique dangers posed by tobacco
products and the particular risks they present to
children, TCA § 2(1) – (49)12 … [and] concluded that
‘comprehensive restrictions on the sale, promotion, and
distribution of such products are needed.’ Id. § 2(6).”
FDA Br. at 18. Of the ten broadly-worded statements

12

See 21 U.S.C. § 387, note.

19
of purpose in TCA § 3, the FDA dialed in on only four
of them. These included the purposes of “ensur[ing]
that [FDA] has the authority to address issues of
particular concern to public health officials, especially
the use of tobacco by young people and dependence on
tobacco,” and “provid[ing] new and flexible enforcement
authority to ensure that there is effective oversight of
the tobacco industry’s efforts to develop, introduce, and
promote less harmful tobacco products.” FDA Br. at 19
(quoting TCA §§ 3(2), (4)).
Respondents then summarized their argument:
FDA’s determination that products falling
within the statutory definition of “tobacco
product” should be subject to the Act’s
requirements thus comports with the general
policies set forth in the statute’s findings and
statement of purpose. … Congress plainly
contemplated such inclusive regulation of
tobacco products under this “comprehensive”
scheme, TCA § 2(6), and that congressional
intent properly factors in this analysis.
FDA Br. at 20 (italics added).
Petitioners acknowledged that § 387a(b) must be
tested in its full context, but explained that the context
does not supply an intelligible principle for three
reasons. First, there is no operative standard to be
fleshed out with reference to the general declarations
of purpose. In fact, Petitioners argued from the
beginning that § 387a(b) is worse than even the most
extreme examples of upheld delegations because it
lacks any operative standard whatsoever.
See

20
ROA.403-04. Second, the declarations of purpose are
both amorphous and self-contradictory, and in such a
situation, Panama Refining recognized that article I is
violated if the executive is allowed unbridled discretion
to select which of several competing priorities to
pursue. Third, even if one could discern a guiding
principle from the statements of purpose, Congress’s
narrow initial application of the TCA is–to say the least
–an important part of the “context,” precluding any
easy conclusion that all-encompassing regulation was
Congress’s aim.
b. The Fifth Circuit detects a standard and
affirms dismissal.
The Fifth Circuit panel effectively acknowledged
that the TCA lacks an express standard, App. 14-16,
but imagined one based on “the TCA’s purpose and the
relevant factual background.” App. 16. As to purpose,
the Fifth Circuit quoted from four of Congress’s ten
statements (though, tellingly, not the same four
highlighted in the FDA’s brief). App. 16-17. The panel
then purports to synthesize the broad purposes of the
Act, stating, “[o]bviously, the TCA’s purpose sounds in
(1) protecting the public health and (2) preventing
young people from accessing (and becoming addicted to)
tobacco products.” App. 17 (emphasis added).
As to factual background, the panel wrote that
“Congress concluded that, for several reasons, tobacco
products posed a significant risk to children.” App. 17.
Then, of forty-nine legislative findings, the panel
placed heavy emphasis on the five in which Congress
used the word “comprehensive,” but ripping that word
from its context in those findings. App. 17, 17 n.25.

21
The panel effectively read these legislative findings as
if they compelled the Secretary to extend the TCA to all
products through deeming:
Congress meant for the FDA to attack those
problems comprehensively, that is, in an “allencompassing or sweeping’ fashion.” Gundy, 139
S. Ct. at 2127 (plurality). Those findings, when
coupled with Congress’s stated purposes in
legislating, undoubtedly identify a “general
policy” for the Secretary to pursue.
App. 17-18 (italics in original; footnote omitted).
The panel expressly likened the TCA to the Sex
Offender Registration and Notification Act (SORNA).
In Gundy, a plurality of this Court read SORNA’s
disputed language as “instruct[ing] the Attorney
General to apply SORNA’s registration requirements
to pre-Act offenders as soon as feasible.” 139 S. Ct. at
2129 (emphasis added). Here, the Fifth Circuit wrote
that “[t]he TCA’s commission to the Secretary mirrors
[SORNA’s] delegation to the Attorney General.” App.
20.
The Fifth Circuit also noted that Congress “enacted
a controlling definition of ‘tobacco product,’” and
“restricted the Secretary’s discretion by making many
of the key regulatory decisions itself,” i.e., by laying out
the substantive framework that would become
applicable if a product were deemed. The panel did not
respond to Petitioners’ arguments as to why those two
features were insufficient.
Accordingly, the panel affirmed dismissal of the
case.
The panel did not acknowledge Panama

22
Refining’s holding that permitting the executive to
choose between vague, competing “purpose” statements
violated the nondelegation doctrine. Neither did the
Fifth Circuit consider—as part of the relevant
statutory “context”—the implication of Congress’s
narrow application of the TCA in 2009. The opinion
likewise fails to address the FDA’s own disavowal of
any substantive standard in the final rule, or the FDA’s
arguments and the district court’s holding in the
Nicopure litigation.
Petitioners’ request for en banc rehearing was
denied on August 25, 2020.
REASONS FOR GRANTING THE PETITION
I.

The Fifth Circuit’s Failure to Validate
Petitioners’ Claim Conflicts With This
Court’s Precedent and Vitiates Any
Remaining Limits on Delegation.
a. TCA § 387a(b) impermissibly delegates
quintessential legislative power.

The authority to decide the circumstances under
which a given activity or product shall be subjected to
federal regulation is quintessentially one of legislative
policy. Field v. Clark, 143 U.S. 649, 693 (1892)
(“Legislative power was exercised when congress
declared that the suspension should take effect upon a
named contingency.”) (emphasis added); Opp Cotton
Mills v. Admin. of Wage and Hour Division of Dep’t of
Labor, 312 U.S. 126, 144 (1941) (“The adoption of the
declared policy by Congress and its definition of the
circumstances in which its command is to be effective,
constitute the performance, in the constitutional sense,

23
of the legislation function”) (emphasis added); Yakus,
321 U.S. at 424 (“The essentials of the legislative
function … are preserved when Congress has specified
the basic conditions of fact upon whose existence or
occurrence, ascertained from relevant data by a
designated administrative agency, it directs that its
statutory command shall be effective”).
In accordance with this established principle, the
plurality in Gundy recognized that, if SORNA
conferred authority on the Attorney General to
determine whether SORNA applied to pre-Act offenders
at all, it would have presented a serious constitutional
question. 139 S. Ct. at 2123 (“If that were so, we would
face a nondelegation question.”). The plurality avoided
that question, because it held that the “Court has
already interpreted § 20913(d) to say something
different—to require the Attorney General to apply
SORNA to all pre-Act offenders as soon as feasible.”
Id. (citing Reynolds v. United States, 565 U.S. 432, 44243 (2012)).
b. The Fifth Circuit’s decision ignores and
contradicts Panama Refining.
1.
In Panama Refining, the Court likewise
recognized that “the question whether …
transportation [of hot oil] shall be prohibited” “is
obviously one of legislative policy,” 293 U.S. at 415, and
held the delegation unconstitutional. The Court wrote:
Section 9(c) [of the Recovery Act] does not state
whether or in what circumstances or under what
conditions the President is to prohibit the
transportation of the amount of petroleum or

24
petroleum products produced in excess of the
state’s permission. It establishes no creterion to
govern the President’s course. It does not require
any finding by the President as a condition of his
action. The Congress in section 9(c) thus
declares no policy as to the transportation of the
excess production. So far as this section is
concerned, it gives to the President an unlimited
authority to determine the policy and to lay
down the prohibition, or not to lay it down, as he
may see fit.
Id. at 415.
The Court held this delegation unconstitutional
despite expressly acknowledging that the scope of
authority was narrowly circumscribed to the particular
subject matter (“hot oil”) and despite the binary nature
of the President’s authority. Id. at 414-15.
In a portion of Panama Refining that the Fifth
Circuit never acknowledges, much less distinguishes,
the Court examined the Recovery Act’s surrounding
provisions and statements of purpose, but found they
did not establish a discernible standard. Id. at 417-18.
This aspect of the decision warrants discussion in some
detail, because it announces perhaps the last
enforceable limit on the delegation of legislative power
under the Court’s current approach, but has been
dispatched by the decision below.
Some purposes of the Recovery Act would seemingly
have been furthered if the President chose to prohibit
transportation of “hot oil,” such as the conservation of
natural resources, or eliminating “unfair competitive

25
practices.” See id. However, other purposes listed in
the Act would have been undermined by prohibiting
transportation, such as “removing obstructions to the
free flow of interstate and foreign commerce.” See id.
In light of these competing goals, the Court refused to
read the general statements of purpose to impose a
discernible standard, explaining:
Among the numerous and diverse objectives
broadly stated, the President was not required to
choose. The President was not required to
ascertain and proclaim the conditions prevailing
in the industry which made the prohibition
necessary. The Congress left the matter to the
President without standard or rule, to be dealt
with as he pleased.
Panama Refining, 293 U.S. at 418–19 (emphasis
added). Then, in a critique that seems tailor-made for
the Fifth Circuit’s decision here, the Court warned that
“[t]he effort by ingenious and diligent construction to
supply a criterion still permits such a breadth of
authorized action as essentially to commit to the
President the functions of a Legislature rather than
those of an executive or administrative officer executing
a declared legislative policy.” Id. at 419 (emphasis
added).
The TCA presents the Secretary with the same kind
of binary authority as § 9(c) of the Recovery Act, with
even vaguer statements of purpose, some of which are
in actual tension.
While one of the TCA’s purposes is to “address the
use of tobacco by young people and dependence on

26
tobacco,” TCA § 3(2), another is “to continue to permit
the sale of tobacco products to adults” and “promote
cessation to reduce disease risk and the social costs
associated with tobacco-related diseases,” id. §§ 3(7),
(9).
Former FDA Commissioner Scott Gottlieb
recognized that “what primarily causes death and
disease from tobacco use isn’t the nicotine” but “the act
of lighting tobacco on fire to free that drug for
inhalation,” and “E-cigarettes may present an
important opportunity for adult smokers to transition
off combustible tobacco products.” ROA.183. In light
of the important distinctions between combustible and
non-combustible products, and the fact that so many
adult smokers have used ENDS to quit smoking
entirely, it is certainly not a given that the Congress
that passed the TCA—grandfathering cigarettes and
leaving other products entirely unregulated—would
support “deeming” vapor products, where the practical
effect would be to extinguish nearly 90% of these
products. Supra at 13; Moreover, federal law still
contains a provision expressly recognizing Congress’s
interest in protecting “commerce and the national
economy … to the maximum extent,” 15 U.S.C. § 1331
(regarding cigarette labeling and advertising), which
the Supreme Court observed in 2000 “reveal[s]
[Congress’s] intent that tobacco products remain on the
market.”
Food and Drug Admin. v. Brown &
Williamson Tobacco Corp., 529 U.S. 120, 139 (2000).
That statute remains on the books.
Far from
evidencing a new tack, Congress’s narrow application
of the TCA in 2009 reflects similar legislative tradeoffs.
Ignoring all this, the Fifth Circuit did what the
Supreme Court in Panama Refining refused to do. The

27
panel evades all distinctions and internal tension by
mashing the entire “purpose” list into a still more
generalized “general policy,” claiming that, “[o]bviously,
the TCA’s purpose sounds in (1) protecting public
health and (2) preventing young people from accessing
(and becoming addicted to) tobacco products.” App. 17.
Notably, the Fifth Circuit chose different statements of
purpose to emphasize than the statements highlighted
by the FDA in its brief, although both the court and the
Agency cited only a few of the ten listed purposes.
The Fifth Circuit’s abstraction—from Congress’s
already abstract and competing goals—necessarily
required the Fifth Circuit to choose which principles to
prioritize. So, it erases from consideration Congress’s
other stated goals of continuing the sale of products to
adults, and even of “promoting cessation,” an important
goal the FDA itself acknowledges ENDS may further.
And in the end, the Fifth Circuit’s re-formulated
overall standard does nothing to cabin the FDA’s
discretion, as “public health” may arguably be
protected either by terminating the market for ENDS
or by facilitating and expanding it to promote
cessation. The FDA could defend either with reference
to public health, and therefore is left with the
discretion to prioritize which particular aims are more
important. Cf. Panama Refining, 293 U.S. at 418-19;
Gundy, 139 S. Ct. at 2146 (G ORSUCH, J., dissenting).
But the Fifth Circuit went a step further, reading
the TCA as if it mandated the Secretary to regulate all
tobacco products. Perhaps the Fifth Circuit felt obliged
to adopt this reading in light of the fact that the FDA
already had deemed everything. To justify this

28
interpretation, the court referred to the appearance of
the word “comprehensive” in a handful of legislative
findings. App. 17 n.25. But these references cannot
bear the weight the court has imposed upon them. The
handful of references (such as that to “comprehensive
restrictions on the sale, promotion, and distribution of
such products”) are references to the breadth of the
topics covered by the TCA (marketing, distribution,
etc.), and not to the scope of products to which the TCA
applied. Moreover, Congress’s narrow application in
2009 belies any easy conclusion that Congress wanted
the broadest coverage possible. Instead, the limited
initial scope reflects the principle that “[n]o law
pursues just one purpose at all costs, and no statutory
scheme encompasses just one element.” King v.
Burwell, 576 U.S. 473, 512 (2015) (Scalia, J.,
dissenting). See also Gundy, 139 S. Ct. at 2146
(Gorsuch, J., dissenting); ANTONIN SCALIA & BRYAN A.
GARNER, READING LAW: THE INTERPRETATION OF LEGAL
TEXTS 218 (2012) (explaining that “an expansive
purpose in the preamble cannot add to the specific
dispositions of the operative text”).
If Congress wanted the TCA to apply to all tobacco
products, it would have been easy enough to say so
itself in the statute rather than severely limiting its
initial application. The plain text of § 387a(b) instead
clearly and unequivocally vests the Agency with the
discretion to apply, or not apply, the TCA to additional
tobacco products. The Fifth Circuit’s analysis ignores
the clear import of this text. The Fifth Circuit’s
strained reimagination of the statue as if it compels allencompassing regulation is also flatly belied by the fact
that the FDA initially considered leaving premium

29
cigars unregulated, Deeming Rule, 81 Fed. Reg. at
29,020, and stated expressly in the final rule that “FDA
agrees that the Agency is not obligated to deem all
tobacco products,” id. at 29,025.
2. Not only does the Fifth Circuit’s imagined
standard contravene competing principles reflected in
the TCA, but the fact that the court attempted to
discern a standard in these circumstances marks a
novel departure from Panama Refining. The panel
makes no attempt to distinguish Panama Refining, and
cites no case fabricating a standard in the absence of
some kind of operative statutory standard. The panel’s
authority for this point, Am. Power & Light Co., 329
U.S. at 104 (see App. 15-16, 16 n.23), featured both (i)
a primary statutory standard and (ii) what the Court
called “a veritable code of rules … for the Commission
to follow in giving effect to the standards of s 11(b)(2).”
Id. at 104-05 (emphasis added). The TCA has neither.13
Even more puzzling is the fact that the panel imagines
a (meaningless) standard “sounding in” public health,
despite the fact that the FDA itself eschewed any
public health standard in the final rule. Oddly, then,
in the supposed service of facilitating necessary
discretion in executive agencies, a panel of three judges
overruled the agency’s own contemporaneous view of
the statute it administers.

13

The panel also cites Thomas v. Union Carbide Agric. Prod. Co.,
473 U.S. 568, 593 (1985), App. 16 n.23, which provides even less
support to Respondents’ position, as the Court expressly refused to
opine on the nondelegation claim, noting that it was not litigated
before the district court or this Court.

30
Further, given that the FDA has already deemed
everything that has been, is now, or ever will be a
“tobacco product” to be subject to the TCA, the panel’s
limitation cannot constrain the exercise of the
delegated power.
3. The fact that the deeming provision confers
discretion only with respect to the field of “tobacco
products” does not save the TCA any more than the
fact that § 9(c) of the Recovery Act was strictly
circumscribed to a subset of petroleum products
withdrawn in violation of state law. Panama Refining
expressly recognized that “[t]he subject to which [the
President’s] authority relates is defined” as the narrow
field of oil produced in violation of the limits allowable
under state law, 293 U.S. at 414 (emphasis added), but
proceeded to hold it unconstitutional. This was done
over Justice Cardozo’s dissent, in which he argued that
the president’s discretion was sufficiently limited by
the fact that he had only a binary choice (to prohibit
the transportation, or not), regarding a “particular
commodity,” further limited to when such commodity
was withdrawn in violation of another legal standard
(state law).
293 U.S. at 434-35 (Cardozo, J.,
dissenting); see also A.L.A. Schechter Poultry Corp, 295
U.S. at 552 (Cardozo, J., concurring).
Every delegation case involves a delegated task that
operates within a certain field of activity. If limiting
potential regulation to a certain field of activity were
sufficient for an intelligible principle, then Gundy, and
all other nondelegation cases, would have been much
easier for this Court to dispatch by simply noting that
the authority only operates within the field at issue.

31
For example, in Gundy, while the challenged authority
was circumscribed within the narrow field of “sex
offenders” as defined in SORNA, 139 S. Ct. at 2122
(acknowledging SORNA’s “sex offender” definition), the
separation of powers required the Court to analyze
whether Congress had sufficiently limited the Attorney
General’s discretion to determine SORNA’s
applicability to pre-Act offenders, id. at 2123.
4. Likewise, the fact that the TCA supplies the
requirements applicable to regulated products does not
remedy the lack of any standards to guide the
Secretary’s decision whether a given tobacco product
shall be so regulated. For example, in Touby v. United
States, the Court examined whether Congress had
provided sufficient guidance to “meaningfully
constrain” the Attorney General’s discretion to
temporarily schedule a purported controlled substance,
despite the fact that the Controlled Substances Act
supplied a detailed regulatory framework to any drugs
subjected to it. 500 U.S. 160, 160-65 (1991). 14
Panama Refining and Touby thus foreclose the
panel’s claim that vesting a cabinet official with the
unilateral authority to decide whether a given segment
of the economy is regulated or not is merely a “finishing
touch” under the TCA. Cf. App. 20. Deciding whether

14

The statute in Touby was upheld because it required the
Attorney General to “find that [temporarily scheduling a
substance] is ‘necessary to avoid an imminent hazard to the public
safety,’” he was “required to consider three [identified] factors,”
and “must satisfy the requirements of § 202(b),” which “identifies
the criteria for adding a substance to each of the five schedules.”
Id. at 166-67.

32
cigars (or any other product) shall be regulated, after
Congress left them unregulated, is not a “finishing
touch.”
5. The unbridled discretion feared and avoided even
by the plurality in Gundy is the precise discretion
vested in the Secretary here. And unlike with SORNA,
there is no way to read the TCA as if it required that
the Secretary deem any particular product to be subject
to the requirements of the TCA, at any time or for any
reason. Congress limited the regime to cigarettes and
snuff and left any other products unregulated, except
at the Secretary’s whim.
c. Section 387a(b) is particularly troubling
because it delegates authority to decide
major policy questions.
Forty years ago, then-Justice Rehnquist urged the
Court to enforce the nondelegation doctrine, especially
where Congress has delegated “important choices of
social policy to politically unresponsive
administrators.” Industrial Union Dept., AFL-CIO v.
American Petroleum Institute, 448 U.S. 607, 686-87
(1980) (Rehnquist, J., concurring in judgment). So far,
this call has not been heeded, and the boundless
delegation in the TCA illustrates the increasing
Congressional lassitude inevitably resulting from the
decades-long failure of the judicial branch to enforce
the structural limits on delegation imposed by article
I. At least five justices of the current Court have
expressed a willingness to examine this unwarranted
dilution of the nondelegation doctrine, especially where
a question of major policy or economic significance is
involved. Gundy, 139 S. Ct. at 2141-42 (Gorsuch, J.,

33
dissenting); id. at 2130-31 (Alito, J., concurring); Paul
v. United States, 589 U.S. __, __ (2019) (Kavanaugh, J.,
statement respecting the denial of certiorari). This is
just such a case.
Determining whether entire segments of “tobacco
products” in this country shall be federally regulated is
clearly a major policy question. This Court has already
recognized that the tobacco industry is rife with
historical economic and political import, see Brown &
Williamson, 529 U.S. at 160, yet § 387a(b) gives an
executive agency unilateral discretion to decide which
products shall be regulated. Thus it was that the FDA
was able to unilaterally extend federal regulation over
products like cigars, hookah, and pipe tobacco, which
Congress declined to regulate. It also asserted federal
power over the entirely new ENDS industry, which is
materially distinct from the combustible tobacco
products Congress examined in 2009, both in the
function and variability of the products and in their
health effects. In fact, material distinctions exist
within the ENDS industry (e.g., open systems versus
closed, cartridge-based systems, as noted infra at 35
n.16), and material distinctions abound among the
different combustible products as well. See, e.g.,
Deeming Rule, 81 Fed. Reg. at 29,020 (acknowledging
that “compared with persons who smoke cigarettes,
those who use cigars exclusively have a lower risk for
many smoking-related diseases,” as “cigar smokers
generally smoke at a lower frequency and tend not to
inhale the smoke”). Extending federal regulation over
new segments of this industry involves policy
judgments, and prioritization of interests, of deep
significance.

34
The significant policy choices involved in, and
following from, the deeming authority are further
illustrated by the very public manner in which the
Administration has seen fit to wield this authority,
along with its frequently shifting priorities and
haphazard solicitation of stakeholder input.
When the Administration announced yet another
intended modification to its enforcement policy in
September 2019 (the intent to “finalize a guidance
document” that would “remove[] from the market” all
flavored e-cigarettes other than tobacco flavor), it did
so in a press conference from the White House,
attended by the President, the Secretary, and the FDA
Commissioner, and televised live on national news. See
ROA.387-88.
In a Senate committee hearing two months later,
senators expressed diverse views on the proposed
action. Joyce Frieden, Senators Slam FDA for Inaction
on Youth Vaping Epidemic, MEDPAGE TODAY (Nov. 13,
2019), https://www.medpagetoday.com/primarycare/
smoking/83324.
Several Senators expressed
impatience and urged FDA officials to act without
further delay. Id. Senator Mitt Romney lamented that
legislation proposed in the Senate eight months earlier
to restrict ENDS flavors lacked support to advance.
Id.15 Amidst the roiling debate, the President hosted a
hastily arranged meeting at the White House on
November 22, 2019, with various invited stakeholders
jockeying for the President’s attention.
Sarah
Owermohle, Trump hosts vaping shoutfest at the White

15

See Safe Kids Act, S. 655, 116th Cong. (2019).

35
House, POLITICO (Nov. 22, 2019), https://www.politic
o.com/news/2019/11/22/trump-white-house-vapingmeeting-072937. Some advocated a comprehensive ban
on flavored ENDS products to avoid appealing to
adolescents, while others argued that distinctions must
be made between the sleek, cartridge-based products
popular with young persons and the open-tank systems
popular with adults, and that banning flavors across
the board would destroy thousands of small businesses
and make it more difficult for smokers to quit or stay
off of cigarettes. Id. Senator Romney—reduced to
lobbying the Administration in light of the failure of
Congressional action—“told the president that most
adults are not using flavors, prompting vaping industry
leaders in the room to shout, ‘Yes they do!’ and to offer
sales statistics[.]” Id. While no conclusions were
announced that day, in January 2020, the FDA
announced its decision to prioritize enforcement
against cartridge-based (closed system) flavored
ENDS.16
The November 22 White House roundtable featured
spirited advocates from several sides of a policy debate,
all attempting to influence the Administration’s

16

FDA, Enforcement Priorities for Electronic Nicotine Delivery
Systems (ENDS) and Other Deemed Products on the Market
Without Premarket Authorization: Guidance for Industry (Jan.
2020) at 11, 15 (concluding that “youth overwhelmingly prefer
cartridge-based ENDS products”); see also id. at 19, 21 (“cartridgebased products … [are the] primary driver in youth
experimentation with, and continued use of, ENDS products”); id.
at 15-16, 19, 21 (recognizing distinctions in cartridge-based versus
open-tank systems that make cartridge-based products attractive
to youth, such as ease of use and concealability)

36
enforcement policy regarding ENDS.
This is a
reflection of the importance of this issue to several
different constituencies in this country. But under the
TCA, the Administration did not even have to take the
step of extending its regulatory jurisdiction over ENDS
in the first place. It applied the TCA to ENDS—along
with several other entire “tobacco product”
industries—in its unilateral discretion
These are precisely the types of legislative decisions
dedicated to the Congress alone under the
Constitution. “The framers went to great lengths to
make lawmaking difficult,” “insist[ing] that any
proposed law must win the approval of two Houses of
Congress—elected at different times, by different
constituencies, and for different terms in office[.]”
Gundy, 139 S. Ct. at 2134 (Gorsuch, J., dissenting).
Yet there in November 2019 were the vaping
restrictionists, on the one side, pleading with the
president to destroy the market for flavored products
by executive fiat, while others pleaded for the rights of
small business owners and former smokers who quit
through vaping. Cf. Gundy, 139 S. Ct. at 2135
(Gorsuch, J., dissenting) (“Without the involvement of
representatives from across the country or the
demands of bicameralism and presentment, legislation
would risk becoming nothing more than the will of the
current President.”). Congressional representatives
were lobbying the President rather than enacting
legislation.17

17

In addition to Senator Romney, who was present at the meeting,
other Senators lobbied the President through letters. Press
Release, Sen. Dick Durbin, Durbin Sends Bipartisan & Bicameral

37
II.

This Case Presents an Especially
Compelling Need For Enforcement of The
Nondelegation Principle Because of the
Particularly Broad and Standardless
Delegation of Power to Decide Major Policy
Questions In An Area Devoid of Any
Inherent Presidential Authority.

In many decisions before and after then-Justice
Rehnquist’s plea in Industrial Union, this Court has
dutifully nodded to the viability of the nondelegation
doctrine in theory, while facilitating its demise in
practice. This case illustrates the result of this
progression. Despite the fact that the deeming
authority is literally standardless, just like the statute
in Panama Refining, the Fifth Circuit felt obliged to
give Congress a pass, and did what the Court in
Panama Refining refused to do. The Fifth Circuit
abstracted from vague and competing aspirational
statements, ignoring their internal contradictions, in
order to imagine a still-more-meaningless purported
standard. The FDA could meet that purported
standard regardless of any decision it made. Moreover,
in imagining a standard, the Fifth Circuit ignored the
fact that the FDA itself stated flatly in the Deeming

Letter to President Trump Urging For Final E-Cigarette Flavor
Ban (Dec. 3, 2019), https://www.durbin.senate.gov/newsroom/
press-releases/durbin-sends-bipartisan-and-bicameral-letter-topresident-trump-urging-for-final-e-cigarette-flavor-ban (touting
signatures of 25 Members of Congress); Press Release, Sen. Patty
Murray, Senators Murray, Cantwell Slam FDA E-Cigarette Policy
Riddled With Loopholes for Kid-Appealing Flavors (Jan. 14, 2020),
https://www.murray.senate.gov/public/index.cfm/newsreleases?C
ontentRecord_id=7F5D8E7C-539B-486F-AE63-D8809D18D6AC.

38
Rule that no substantive standard guided its
discretion, and later defended this position in federal
court. Thus, in the supposed service of the notion that
broad delegations must be permitted so expert agencies
can administer the statutes entrusted to their care, the
Fifth Circuit ignores the contemporaneous, official
position of the Agency here. Present nondelegation
jurisprudence thus apparently requires federal courts
to invent standards that Congress refused to write and
the agency expressly rejected—resulting not merely in
permissive delegations to the executive, but, effectively,
legislative delegations to the judiciary. This, indeed, is
delegation run amok.
If the vesting Clause of Article I is to retain any
force whatsoever, it is no longer sufficient for this
Court to nod to the nondelegation principle in theory.
The Court must “call foul when the constitutional lines
are crossed.” Gundy, 139 S. Ct. at 2135 (Gorsuch, J.,
dissenting). This is an especially broad delegation of
authority to make major policy decisions, in an area of
domestic social and economic policy entirely outside of
any independent executive authority. Cf. id. at 2140
(observing that some broad delegations may be
explained because they “implicated the president’s
inherent Article II authority” over military affairs or
long-established executive fact-finding functions);
Indust. Union Dep’t, AFL-CIO, 448 U.S. at 684
(Rehnquist, J., concurring) (contrasting presidential
authority over foreign affairs with regulation of
domestic affairs).
Accordingly, this case presents a particularly
compelling illustration of the need for enforcement of

39
article I’s vesting clause, and the Court should not
hesitate to grant review. The Court should correct the
“mutated version of the ‘intelligible principle’ remark,”
which was indeed “plucked” from its original context,
as explained in Justice Gorsuch’s dissent in Gundy, 139
S. Ct. at 2139-40, and apply a more robust test.
Nonetheless, the deeming authority violates the
Constitution because it lacks an “intelligible principle”
even under current caselaw, under the authority of
Panama Refining.
CONCLUSION
For the foregoing reasons, the petition should be
granted.
Respectfully submitted,
Jerad Wayne Najvar
Counsel of Record
Austin M.B. Whatley
Najvar Law Firm, P.L.L.C.
2180 North Loop West, Ste. 255
Houston, TX 77018
(281) 404-4696
jerad@najvarlaw.com
Counsel for Petitioners

